APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Seventh Circuit, United States of
America v. Pierson, No. 18-1112
(May 31, 2019) ............................................. App-1
Appendix B
Judgement in a Criminal Case, United
States District Court for the Southern
District of Indiana, United States of
America v. Pierson, No. 1:16CR00206-001
(Jan. 12, 2018) ........................................... App-27
Appendix C
Transcript of Sentencing Hearing, United
States District Court for the Southern
District of Indiana, United States of
America v. Pierson, No. 1:16CR00206-001
(Jan. 10, 2018) ........................................... App-39
Appendix D
Indictment, United States District Court
for the Southern District of Indiana,
United States of America v. Pierson,
No. 1:16CR00206-001 (Sept. 21, 2016) ..... App-61
Appendix E
Information as to Defendant’s Previous
Felony Drug Convictions, United States
District Court for the Southern District of
Indiana, United States of America v.
Pierson, No. 1:16CR00206-001 (Sept. 23,
2016)........................................................... App-65

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 18-1112
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee,

DEVAN PIERSON,
Defendant-Appellant.
________________
Argued: Feb. 6, 2019
Decided: May 31, 2019
________________
Before KANNE, SYKES, and HAMILTON,
Circuit Judges.
________________
OPINION
________________
HAMILTON, Circuit Judge. A jury found
appellant Devan Pierson guilty of possessing drugs
with intent to distribute and two related firearm
crimes. Because of Pierson’s prior criminal record, his
mandatory sentence was life in prison. He raises three
issues on appeal. The first, raised for the first time on
appeal, is whether events at his trial added up to a
constructive amendment of the two firearm charges in
his indictment, which charged him with possession of

App-2
one particular gun. Under our precedent in United
States v. Leichtnam, 948 F.2d 370 (7th Cir. 1991), we
conclude that an error occurred. It was not, however,
a “plain error” that warrants reversal, and it did not
affect Pierson’s substantial rights. Second, Pierson
argues that the court erred under Apprendi v. New
Jersey, 530 U.S. 466 (2000), by imposing the
mandatory life sentence without having the jury find
that he had two prior felony drug convictions. This
argument is foreclosed by controlling Supreme Court
precedent. See Almendarez-Torres v. United States,
523 U.S. 224 (1998). Third, he seeks the benefit of the
First Step Act, which was enacted while Pierson’s
appeal was pending and which lowered the mandatory
minimum sentence. The Act does not apply to Pierson,
whose sentence was imposed before the Act took effect.
We affirm Pierson’s convictions and sentence.
I.

Factual and Procedural Background
A. The Search and Arrest

The Indianapolis Metropolitan Police Department
obtained a warrant to search an apartment where
they suspected defendant Pierson was distributing
drugs. Before executing the warrant, officers saw a
disheveled, jittery man who, they said, looked like a
substance abuser. The officers watched him ride a
bicycle to the apartment parking lot and get into the
passenger seat of a gray Chevrolet Malibu. Moments
later, the man got out of the Malibu and rode away.
Pierson then emerged from the driver’s seat, retrieved
a white bag from the trunk, and entered the
apartment building.
Officers then executed the search warrant. In the
apartment, they found the white bag sitting on top of

App-3
the shoes that Pierson had been wearing when he
entered the building. The white bag contained 91.25
grams of heroin, 6.34 grams of cocaine, and 100.47
grams of actual methamphetamine. Next to the white
bag, the officers found two more bags. One contained
19.49 grams of cocaine. The other contained 2.38
grams of cocaine, 7.45 grams of methamphetamine,
and 7.58 grams of heroin. Throughout the apartment,
officers found other evidence of drug trafficking:
surgical masks, plastic gloves, digital scales, and a
bottle of lactose. In a kitchen drawer, officers found a
Taurus Model PT 24/7 G2 .45 caliber handgun.
Officers then searched the Malibu. They found
papers indicating that Pierson had purchased and
insured the car. They also discovered that the center
console had been modified to create a hidden void,
where they found a second firearm, a Taurus Model
PT 145 .45 caliber handgun. Both handguns were
checked for fingerprints, but Pierson’s prints were not
on either. No fingerprints were recovered from what
we will call the “car gun.” A fingerprint belonging to
an unknown person was recovered from the “kitchen
gun.”
B. Indictment and Trial
The indictment charged Pierson with three
crimes: (1) possessing controlled substances with
intent to distribute in violation of 21 U.S.C.
§ 841(a)(1); (2) possessing a firearm in furtherance of
a drug trafficking crime in violation of 18 U.S.C.
§ 924(c)(1)(A); and (3) possessing a firearm as a
previously convicted felon in violation of 18 U.S.C.
§ 922(g)(1). In Counts II and III, the indictment

App-4
specified only the car gun as the firearm charged—
“that is, a Taurus Model PT 145 .45 caliber handgun.”
Though only the car gun was charged, the
government presented evidence at trial regarding
both guns. Both were shown to the jury, and pictures
of both were sent to the jury for deliberations. An ATF
agent testified that both guns were manufactured in
Brazil (providing a nexus with foreign commerce) and
that both were stolen. After explaining where he found
the kitchen gun, an officer testified that drug
traffickers commonly possess firearms for protection.
Pierson did not object to any of this evidence.
The government also presented evidence specific
to the charged car gun. An officer testified that it was
not unusual that Pierson’s fingerprints were not on
the car gun. Later, an officer explained the value of
keeping a gun in a center console for purposes of drug
trafficking. An officer also explained to the jury that a
drug trafficker may, for protection and privacy, choose
to keep a larger stash of drugs in the trunk while
dealing drugs within the passenger compartment.
Before closing arguments, the district court gave
the final jury instructions that both sides had
approved. Using this circuit’s pattern criminal jury
instructions, the district court’s instructions on
Counts II and III did not signal that the car gun was
the only firearm at issue. In closing argument, the
government focused the jury on the car gun, making
at least five statements that either tied the car gun to
the drug trafficking crime of Count I or clarified that
the car gun was the gun at issue in Counts II and III.
When the prosecutor referred briefly to the kitchen
gun in closing, he again clarified that the kitchen gun

App-5
was not the gun charged: “The indictment deals with
the gun in the car. What is charged in Count II and III
is the stolen handgun behind the panel of the
Defendant’s car.” In rebuttal, the prosecutor repeated
the point: “We are talking about the gun in the
Defendant’s car, not the gun in the kitchen … That is
the gun that is the subject of Counts II and III.”
In deliberations, the jury had a copy of the
indictment, which contained the language specifying
the model of the car gun. The verdict form referred the
jury to the indictment, requiring the jury to mark
“guilty” or “not guilty” for each charge “as described in
the Indictment.” The jury returned guilty verdicts on
all counts.
C. Sentencing
Before sentencing, the government filed an
Information pursuant to 21 U.S.C § 851 alleging that
Pierson had two prior felony drug convictions. Under
the law at the time, these convictions required a
mandatory term of life in prison for the drug charge.
See 21 U.S.C. § 841(b)(1)(A)(viii) (Jan. 2018). The jury
was not asked to find that Pierson had those prior
convictions; the district court made that finding,
without objection, based on the § 851 Information. In
addition to the mandatory life term, Pierson was
sentenced to five years on Count II to be served
consecutively to his life sentence, and a ten-year
concurrent term for Count III.
II. Analysis
A. Constructive Amendment
On appeal, Pierson argues that his two firearm
convictions should be vacated and remanded for a new

App-6
trial because his indictment was constructively
amended in violation of his Fifth Amendment rights.
He argues that the combination of admitting evidence
of the kitchen gun and the court’s jury instructions,
which did not specify that guilt could be found based
only on the car gun, allowed the jury to convict him on
grounds outside of the indictment.
1.

Standard of Review

At trial, Pierson did not object to the kitchen gun
evidence or the jury instructions, but we may still
reverse under Federal Rule of Criminal Procedure
52(b), which provides: “A plain error that affects
substantial rights may be considered even though it
was not brought to the court’s attention.” On plainerror review, we may reverse if: (1) an error occurred,
(2) the error was plain, (3) it affected the defendant’s
substantial rights, and (4) it seriously affected the
fairness, integrity, or public reputation of the
proceedings. United States v. Olano, 507 U.S. 725,
732-738 (1993); United States v. Duran, 407 F.3d 828,
834 (7th Cir. 2005). An error is a deviation in the
district court from a legal rule that the defendant did
not waive. See Olano, 507 U.S. at 732-33. An error is
“plain” if the law at the time of appellate review shows
clearly that it was an error. See Henderson v. United
States, 568 U.S. 266, 279 (2013). 1
In applying plain-error review, we draw a distinction between
waiver and forfeiture. Where a right is waivable and the
defendant waived it by intentionally choosing not to exercise it,
appellate review simply is not available. Forfeiture—the failure
to make a timely assertion of a right—may still permit
consideration of the error under Rule 52(b). See Olano, 507 U.S
at 733-34.
1

App-7
In United States v. Olano, the Supreme Court
explained the third prong, affecting substantial rights:
“in most cases it means that the error must have been
prejudicial: It must have affected the outcome of the
district court proceedings.” 507 U.S. at 734 (internal
citation omitted). The defendant bears the burden of
showing this prejudice. Id.
The fourth prong of plain-error review is
addressed to the appellate court’s discretion. See id. at
732, 736-37. If the first three prongs are satisfied, we
may reverse if we determine that the error seriously
affected the fairness, integrity, or public reputation of
the judicial proceedings. “[I]n most circumstances, an
error that does not affect the jury’s verdict does not
significantly impugn the ‘fairness,’ ‘integrity,’ or
‘public reputation’ of the judicial process.” United
States v. Marcus, 560 U.S. 258, 265-66 (2015), quoting
Johnson v. United States, 520 U.S. 461, 467 (1997).
2.

The Constructive Amendment

“No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury.” U.S. Const. amend. V.
Only the grand jury can broaden an indictment
through amendment; neither the government nor the
court may do so. See Stirone v. United States, 361 U.S.
212, 215-16 (1960). This rule both enforces the Fifth
Amendment and helps to ensure that a defendant is
given reasonable notice of the allegations against him
so that he may best prepare a defense. See United
States v. Trennell, 290 F.3d 881, 888 (7th Cir. 2002).
The Fifth Amendment is violated by a so-called
constructive amendment, which can occur when the
proof offered at trial, the jury instructions, or both

App-8
allow the jury to convict for an offense outside the
scope of the indictment. See generally Stirone, 361
U.S. at 217-18; United States v. Remsza, 77 F.3d 1039,
1043 (7th Cir. 1996). When a constructive amendment
occurs and the court overrules the defendant’s
objections to the impermissible broadening, the error
is “reversible per se.” United States v. Leichtnam, 948
F.2d 370, 377 (7th Cir. 1991), citing Stirone, 361 U.S.
at 217.
Pierson argues that his indictment was
constructively amended by the combination of the
government’s kitchen-gun evidence and the court’s
jury instructions that failed to specify the car gun as
the gun charged. Pierson’s indictment narrowed the
bases of conviction by specifying the car gun—not any
other firearm—in Counts II and III. But the
government, by presenting evidence of the nonindicted kitchen gun, created an exit ramp that might
have tempted the jury to veer outside the confines of
his indictment. The court’s jury instructions did not
block that exit ramp. Together, the evidence and jury
instructions created the possibility of conviction based
on either the car gun or kitchen gun, though the
indictment required, more narrowly, that guilt be
based on Pierson’s possession of only the car gun.
Under this circuit’s precedent, this combination of the
evidence and untailored jury instructions added up to
a constructive amendment.
To support his constructive amendment
argument, Pierson points to United States v.
Leichtnam, supra, where the facts were very similar
to this case and we found that a constructive
amendment occurred. In Leichtnam, the defendant

App-9
was indicted for using and carrying “a firearm, to wit:
a Mossberg rifle” in relation to a drug trafficking
crime. Though only a Mossberg rifle was mentioned in
the indictment, the government entered two other
firearms—two handguns—into evidence. The court
then instructed the jury that the relevant count
hinged on proof that the defendant “intentionally used
or carried a firearm.” 948 F.2d at 374-75 (emphasis
added). Together, the evidence and instructions
allowed the defendant to be convicted based on a
finding that he carried any firearm, rather than the
specific firearm charged. Id. at 380-81.
Specific language in an indictment that provides
detail beyond the general elements of the crime makes
the specified detail essential to the charged crime and
must, therefore, be proven beyond a reasonable doubt.
We made clear in Leichtnam that the specified firearm
was, as a matter of law, “not merely surplusage.” 948
F.2d at 379 (“By the way the government chose to
frame Leichtnam’s indictment, it made the Mossberg
an essential part of the charge and limited the bases
for possible conviction to the Mossberg.”). 2

In Leichtnam, we cited examples where a specific detail
alleged in an indictment became an essential element of the
charged crime: “When included in the indictment, the words to
‘to wit … the DeCavalcante Family’ become an essential element
of the charge.” Leichtnam, 948 F.2d at 377-78, citing United
States v. Weissman, 899 F.2d 1111, 1115-16 (11th Cir. 1990), and
Howard v. Daggett, 526 F.2d 1388, 1390 (9th Cir. 1975)
(indictment charged inducing two particular women into
prostitution, so defendant could not be convicted of inducing
prostitution generally).
2

App-10
Like the indictment in Leichtnam, Pierson’s
indictment specified the firearm with which he was
charged—the car gun. Count II alleged:
Pierson … did knowingly possess a firearm,
that is, a Taurus Model PT 145 .45 caliber
handgun, in furtherance of a drug trafficking
crime for which he may be prosecuted in a
court of the United States, that is, the drug
offense charged in Count One; all in violation
of Title 18, United States Code, Section
924(c)(1)(A).
Count III alleged in pertinent part:
Pierson … having been convicted of a crime
punishable by imprisonment for a term
exceeding one year … did knowingly possess
in and affecting interstate commerce, a
firearm, that is, a Taurus Model PT 145 .45
caliber handgun, in violation of Title 18,
United States Code, Section 922(g)(1).
The grand jury made the car gun an essential
element of Counts II and III when, in the indictment,
it specified the car gun by brand and model number.
The government could have drafted the indictment to
allege that Pierson possessed “a firearm,” generally,
but it chose not to. Therefore, conviction hinged on the
car gun. Possession of the kitchen gun could not serve
as a substitute basis for conviction.
Despite charging only the car gun, the
government introduced evidence of both the car gun
and the kitchen gun, just as the government in
Leichtnam introduced evidence of firearms not
mentioned in the indictment. In Pierson’s case, the
evidence highlighted similarities between the two

App-11
guns. Both guns were .45 caliber, Taurus-brand
handguns manufactured in Brazil, and both were
stolen. The guns were also similar in appearance. The
indictment specified the gun charged by its brand and
model number and not by the location where it was
found. It may have been difficult for the jury to
distinguish the kitchen gun from the car gun. But the
evidence alone did not constructively amend Pierson’s
indictment. 3
Following Leichtnam, we find that the
combination of the evidence and jury instructions
added up to a constructive amendment of Pierson’s
indictment. In explaining to the jury the elements for
Counts II and III, the district court itself never
clarified that guilt hinged on finding that Pierson
possessed the car gun. Instead, like the trial court in
Leichtnam, the court explained in general terms that
possession of “a firearm” was necessary, which we held
added up to a constructive amendment when
combined with evidence regarding uncharged
firearms. 948 F.2d at 379; see also United States v.
Murphy, 406 F.3d 857, 860-61 (7th Cir. 2005) (finding
constructive amendment where court instructed that
defendant could be convicted for witness tampering if
he knowingly intimidated or used physical force
against witness, though indictment charged him with
witness tampering only via physical force or threat of
force, and not intimidation).
3 We do not suggest that the government introduced the
kitchen-gun evidence to confuse the jury. The government offered
the plausible explanation at oral argument that it introduced the
kitchen-gun evidence to block any suggestion that it was
withholding information from the jury.

App-12
In Pierson’s case, the jury instructions similarly
failed to limit the jury’s attention to the car gun,
creating at least a theoretical possibility that the jury
could convict Pierson on grounds outside of the
indictment. The kitchen-gun evidence without the
untailored jury instructions, or vice versa, would not
amount to a constructive amendment. But, following
the rationale of Leichtnam, together they expanded
the bases for conviction to proof of either the car gun
or the kitchen gun.
The constructive amendment could have been
avoided easily in this case. Most obviously, Pierson
could have objected to the evidence or the jury
instructions. He did not. “Had he done so, the district
judge might well have acted to avoid any error.”
Leichtnam, 948 F.2d at 375. Or the government could
have drafted a broader indictment; it was not required
to charge a specific firearm. Or the government could
have simply withheld the kitchen-gun evidence. Or,
even with the kitchen-gun evidence, more specific jury
instructions would have cleared up any ambiguity.
The court risked constructive amendment by not
tailoring the pattern jury instructions to the specifics
of the case. When the indictment narrows the basis for
conviction by adding specifics to an element of the
crime, as it did here, the district court should adjust
the pattern instructions to ensure the defendant
stands to be convicted for precisely what was charged
in the indictment. See United States v. Miller, 891
F.3d 1220, 1232 (10th Cir. 2018), citing United States
v. Ward, 747 F.3d 1184, 1192 (9th Cir. 2014) (“[W]hen
conduct necessary to satisfy an element of the offense
is charged in the indictment and the government’s

App-13
proof at trial includes uncharged conduct that would
satisfy the same element, we need some way of
assuring that the jury convicted the defendant based
solely on the conduct actually charged.”).
Pattern jury instructions are helpful, of course,
but “Pattern instructions are not intended to be used
mechanically and uncritically.” United States v.
Edwards, 869 F.3d 490, 497 (7th Cir. 2017). They
should be used as a starting point rather than an
ending point. Where the indictment makes a
particular firearm an essential element of the offense
as charged, the court’s jury instructions should be
adjusted to include that essential element. If jury
instructions are tailored to the specific charges in the
indictment, constructive amendments are less likely
to occur. Certainly, in Pierson’s case, if the court had
specified the car gun in the instructions, there would
have been no constructive amendment.
3.

The Error Was Not “Plain”

Under Leichtnam, we thus find a constructive
amendment error, but that error does not call for
reversal of Pierson’s firearm convictions. The error
was not “plain.” Our precedent is unclear as to
whether and when factors such as closing arguments,
verdict forms, and indictment copies in deliberations
can contribute to or prevent constructive
amendments. Additionally, there is not a general
consensus among the circuits on the effects of those
factors, and the Supreme Court has not addressed
them.
An error cannot be “plain” if the law is unsettled.
See United States v. Hosseini, 679 F.3d 544, 552 (7th
Cir. 2012). An error also is not “plain” if it is “subtle,

App-14
arcane, debatable, or factually complicated.” United
States v. Turner, 651 F.3d 743, 748 (7th Cir. 2011).
“For an error to be ‘plain,’ it must be of such an obvious
nature that ‘the trial judge and prosecutor were
derelict in countenancing it, even absent the
defendant’s timely assistance in detecting it.’” Id.,
quoting United States v. Frady, 456 U.S. 152, 163
(1982).
The Leichtnam error here was not plain.
Constructive amendment doctrine seeks to prevent
confusion and to ensure that a defendant stands trial
for charges in the grand jury’s indictment. Though the
government introduced evidence of the kitchen gun
and the jury instructions were not tailored, other
events at trial should have made the charges against
Pierson clear to the jury. The government, on six
separate occasions during its closing argument and
rebuttal, pointedly referred to the car gun. In two of
those instances, the government made clear that the
car gun was the only gun indicted. The government
explained that the jury would have to determine
“whether the Defendant possessed this stolen .45‐
caliber handgun from his car in furtherance of his
drug trafficking and whether the Defendant possessed
this .45‐caliber handgun while a convicted felon.” The
government had also made clear during opening
statements that the car gun was the “subject of Counts
II and III.” Beyond the government’s clarifications, the
verdict form directed the jury’s attention to Pierson’s
indictment, and the jury had a copy of his indictment
in deliberations. In our view, these facts minimized
the risk of jury confusion and at least made debatable
whether a constructive amendment occurred here.

App-15
Further, the law in this area is not as settled as
Pierson suggests. He points out that in dissent in
Leichtnam, Judge Coffey argued that no constructive
amendment occurred because at trial, the judge “read
the firearms indictment to the jury, including the
specific reference only to the [charged] Mossberg rifle.”
948 F.2d at 386 (Coffey, J., concurring in part and
dissenting in part) (alteration in original). In addition,
Judge Coffey noted that in closing arguments, the
prosecutor “discussed only the ‘specific firearm
alleged’ in the indictment” and did not mention the
other handguns introduced into evidence. Id. Pierson
argues that the Leichtnam majority found a
constructive amendment despite the clarifications and
suggests we should do the same in his case. However,
in concluding that a constructive amendment occurred
in Leichtnam, the majority never discussed those
factors. See id. at 374-81. The majority opinion thus
provides little direct guidance on the effects of such
clarifications outside of evidence and jury
instructions.
Nor has the law since Leichtnam provided
clarification sufficient to call this error “plain.” No
Supreme Court decision provides direct guidance for
this analysis. Cases from this circuit and others have,
at times, given weight to such factors but do not
provide a clear rule. See, e.g., United States v.
Cusimano, 148 F.3d 824, 830-31 (7th Cir. 1998)
(finding no constructive amendment, in part because
district court instructed that defendants were on trial
only for charges in indictment and provided copy of
indictment to jury); United States v. Lopez, 6 F.3d
1281, 1288 (7th Cir. 1993) (holding that even if
broadening of indictment constituted error, it was not

App-16
plain error, in part because court instructed that
defendants were not on trial for any conduct not
alleged in indictment); see also United States v.
Holley, 23 F.3d 902, 912 (5th Cir. 1994) (holding that,
though jury instructions and evidence may have
broadened bases beyond indictment, no constructive
amendment occurred because court instructed jury to
consider only crime charged in indictment, the
indictment was read to jury at beginning of trial, copy
of indictment was given to jury for deliberation, and
the government, in closing, mentioned only crime as
indicted); United States v. Kuehne, 547 F.3d 667, 68384 (6th Cir. 2008) (“To determine whether a
constructive amendment has occurred, therefore, we
review the language of the indictment, the evidence
presented at trial, the jury instructions and the
verdict forms utilized by the jury”).
Whether a constructive amendment occurred is a
fact-intensive question, and the facts of Pierson’s case
do not lend themselves to clear application of this
circuit’s precedent. Though the government
introduced the kitchen-gun evidence, it also made
clear to the jury that it was not the gun directly at
issue. Because the Leichtnam majority did not address
what effect, if any, clarifying statements like those
made by the government here should have on the
constructive amendment question, we cannot say that
Leichtnam made this error obvious. Additionally,
prior cases have given at least some weight to facts
such as the verdict form and the indictment being
given to the jury when deciding whether or not a
constructive amendment occurred. Together, the facts
in the case make the constructive amendment issue
debatable. The error here was not “plain.”

App-17
4.

Substantial Rights Not Affected

Some of the same factors lead us to conclude that
Pierson’s argument also fails on the third prong of
plain-error review, which requires that he show that
the error affected his substantial rights. Ample
evidence supported convictions on Counts II and III.
Most pertinent to the plain-error question, the
government’s reminders to the jury and the phrasing
of the verdict form make it unlikely that Pierson’s
substantial rights were affected.
Our circuit uses a fairly low threshold for
constructive amendment, as Leichtnam shows, but
when applying plain-error review, we balance that
approach with a relatively demanding approach to
prejudice. The Supreme Court has not clarified
whether “affecting substantial rights” always requires
a showing of prejudice, but “the law in this circuit is
clear. In the context of plain error review, the
amendment must constitute ‘a mistake so serious that
but for it the [defendant] probably would have been
acquitted’ in order for us to reverse. In other words,
the constructive amendment must be prejudicial.”
United States v. Remsza, 77 F.3d 1039, 1044 (7th Cir.
1996) (finding no plain error), quoting United States v.
Gunning, 984 F.2d 1476, 1482 (7th Cir. 1993)
(alteration in original).
Pierson urges us to reconsider the Remsza
standard. First, he suggests that we should not
require any showing of prejudice in cases of
constructive amendment. He cites United States v.
Pedigo, 12 F.3d 618 (7th Cir. 1993), where the
indictment was written so that the jury could not
properly have convicted the defendant on Count III

App-18
based on co-conspirator liability outlined in Count I.
See id. at 631. Nonetheless, “the prosecutor argued,
and the court instructed the trial jury, that the jury
could do just that.” Id. Finding a constructive
amendment, we said that a broadening of the
indictment was reversible per se. See id. at 631
(“Therefore, if an amendment occurred, the plain error
standard of review will not save the conviction.”).
Though Pedigo has not been overruled expressly,
our cases applying the Olano plain-error standard
since then have made clear that its per se approach
does not apply in plain-error review, and we will not
return to it here. See United States v. Duran, 407 F.3d
828, 843 (7th Cir. 2005) (expressly rejecting Pedigo:
“Pedigo is not the current law of this circuit. This court
has explained that when, as here, the indictment is
broadened based on non-specific jury instructions and
when there was no objection to those jury instructions
at trial, plain error review is appropriate.”). We take
instruction from Olano and now require the defendant
to show that the constructive amendment was
prejudicial. See 507 U.S.at 742-43 (Kennedy, J.,
concurring) (“Rule 52(b) does not permit a party to
withhold an objection … and then to demand
automatic reversal”).
Second, Pierson argues that the Remsza prejudice
standard conflicts with cases from other circuits.
There is not, however, a consensus among the circuits
on the appropriate standard in constructive
amendment cases. Some circuits presume that
constructive amendments are prejudicial. See United
States v. Thomas, 274 F.3d 655, 670 (2d Cir. 2001) (“A
constructive amendment is a per se prejudicial

App-19
violation of the Grand Jury Clause of the
Constitution.”); United States v. Floresca, 38 F.3d 706,
713 (4th Cir. 1994) (“a constructive amendment
always ‘affects substantial rights’). The Third Circuit
applies a rebuttable presumption that constructive
amendments are prejudicial and places the burden of
showing no prejudice on the government. See United
States v. Syme, 276 F.3d 131, 154 (3d Cir. 2002). Other
circuits require the defendant to show prejudice, but
some demand less of a showing than we do under
Remsza. See United States v. Madden, 733 F.3d 1314,
1323 (11th Cir. 2013) (finding that defendant was
prejudiced by constructive amendment because court
could not conclude “‘with certainty’ that with the
constructive amendment, [defendant] was convicted
solely on the charge made in the indictment”); United
States v. Miller, 891 F.3d 1220, 1237 (10th Cir. 2018)
(requiring defendant to show “a reasonable probability
that, but for the error claimed, the result of the
proceeding would have been different[,]” and
clarifying that “A reasonable probability is a
probability sufficient to undermine confidence in the
outcome,” and not a requirement that defendant prove
by preponderance of the evidence that, but for the
error, the outcome would have been different). The
Eighth Circuit applies a standard similar to ours in
Remsza. United States v. Gavin, 583 F.3d 542, 547
(8th Cir. 2009) (holding constructive amendment did
not affect defendant’s substantial rights because there
was “no reasonable probability Gavin would have been
acquitted under the correct jury instruction”). Our
standard for determining if substantial rights were
affected by a constructive amendment without

App-20
objection sets a high bar for reversal on plain-error
review.
We found only one case in which a constructive
amendment (without objection) amounted to a plain
error affecting a defendant’s substantial rights. In
United States v. Ramirez, 182 F.3d 544, 545-46 (7th
Cir. 1999), as part of a reverse-sting operation, police
saw the defendant load large quantities of marijuana
into a vehicle and drive away. Officers stopped him
and searched the vehicle. They found a loaded revolver
and the marijuana. One count in the indictment
charged Ramirez with carrying a firearm “in relation
to the crime of knowing and intentional unlawful
distribution of marijuana.” At the end of the trial,
however, the court instructed the jury that the
defendant could be convicted if the government proved
that he “knowingly carried a firearm during and in
relation to a ‘drug trafficking crime.’” Id. The court
defined “drug trafficking crime” in a way that allowed
the jury to convict for crimes outside of those specified
in the indictment, including carrying a firearm in
relation to possession with intent to distribute. The
jury found Ramirez guilty.
Ramirez did not object, so we applied plain-error
review. See 182 F.3d at 547-48. There was no evidence
that Ramirez actually distributed the marijuana,
which was essential to convict him, as charged, of
carrying a firearm in relation to the distribution of the
drug. Id. at 547. At most, the evidence showed that the
defendant carried the firearm in relation to the crime
of possession with the intent to distribute. Id. “Only
through the constructive amendment of the
indictment to include those other drug trafficking

App-21
crimes as potential predicate offenses was the jury
supplied with a basis to convict Ramirez on [Count
III].” Id. at 548. Applying the Remsza standard, we
reversed the conviction on that charge: “but for the
constructive amendment, a reasonable jury would
have acquitted [defendant] on the firearms charge.”
Id.
In this case, by contrast, we are confident that if
no constructive amendment had occurred, the verdict
would have been the same. Strong evidence showed
that Pierson possessed the car gun and that his
possession of that gun was in furtherance of a drug
trafficking crime. See Remsza, 77 F.3d at 1044
(finding defendant not prejudiced by constructive
amendment because testimony provided compelling
proof that defendant committed the indicted crime
and there was no indication that, but for the
constructive amendment, the jury would have reached
a different result); see also Duran, 407 F.3d at 843-44
(finding no prejudice; an “abundance of evidence”
proved that specified gun was possessed in
furtherance of drug-trafficking conspiracy as alleged
in indictment).
Pierson’s ownership of the Malibu, where the
charged gun was found, was uncontested.
Additionally, the government presented strong
evidence to prove Pierson possessed the car gun in
furtherance of the drug trafficking charged in Count I.
Officers recounted Pierson’s activities before the
search, which appeared to be a drug deal. The white
bag that Pierson carried from the car to the apartment
contained distribution quantities of several drugs.
Officers testified that drug traffickers often keep

App-22
weapons in center console voids and larger stashes of
drugs in the trunk, just as Pierson did. 4
In addition to the ample evidence, as noted, the
government’s closing argument told the jury clearly to
focus on the car gun, and the verdict form framed the
questions for each offense “as described in the
Indictment,” and the jury had a copy of the indictment
during deliberations. With all of these factors working
to counter the possibility of a conviction outside the
terms of the indictment, we see no prejudice that
would authorize an appellate court to find a reversible
plain error in the absence of a timely objection in the
district court. See Olano, 507 U.S. at 741 (where
conceded error did not affect substantial rights, court
of appeals had no authority to correct it). 5
All of this testimony aligns with the often-applied theory that
firearms can further drug trafficking by providing protection to
the dealer, his stash, or his territory. See Duran, 407 F.3d at 840.
The government’s evidence satisfied many of the factors relevant
to whether a gun is used in furtherance of drug trafficking: (1)
the type of drug activity conducted; (2) accessibility of the
weapon; (3) the type of weapon; (4) whether the weapon was
stolen; (5) whether possession of that weapon is legal or illegal;
(6) whether the firearm was loaded; (7) the proximity of the
weapon to the drugs; and (8) the time and circumstances in which
the weapon was found. See id., citing United States v. CeballosTorres, 218 F.3d 409, 414-15 (5th Cir. 2000), modified on denial
of rehearing, 226 F.3d 651 (5th Cir. 2000).
4

Because the error was neither “plain” nor affected Pierson’s
substantial rights, we do not need to address the fourth and final
prong of plain-error review which grants appellate courts
discretion to dismiss if the plain error also affected the fairness,
integrity, and public reputation of the proceedings. Cf. Remsza,
77 F.3d at 1044 (stating that if the court could exercise the
discretion granted by the fourth prong, it would choose not to
because the evidence was so compelling); see United States v.
5

App-23
B. Apprendi Issue
Pierson also asserts that his mandatory life
sentence should be vacated and remanded for
resentencing because it was based on two prior felony
drug convictions that were not submitted to the jury
for finding. He cites Apprendi v. New Jersey, 530 U.S.
466 (2000), and Alleyne v. United States, 570 U.S. 99
(2013), to support his argument. Together, those two
cases require that any fact that increases the
maximum or minimum statutory penalty must, if the
defendant does not admit it, be submitted to the jury
for a finding beyond a reasonable doubt. See Apprendi,
530 U.S. at 490; Alleyne, 570 U.S. at 103. Both cases,
however, continued to recognize an exception to that
rule for evidence of prior convictions. See AlmendarezTorres v. United States, 523 U.S. 224, 234-35; 243-46
(1998) (noting danger of prejudice to defendant from
submitting such evidence to jury). The defendants in
Apprendi, 530 U.S. at 490, and Alleyne, 570 U.S. at
111 n.1, did not challenge the Almendarez-Torres
exception. Also, we must note that in our experience
as judges in criminal cases, we have rarely seen an
accused defendant eager to inform a jury about his
prior convictions. Pierson’s argument is clearly
foreclosed by Supreme Court precedent. The issue is
preserved for possible Supreme Court review.

Hall, 610 F.3d 727, 744 (D.C. Cir. 2010) (constructive amendment
did not affect fairness, integrity, or public reputation of court
proceedings; defendant never suggested he would have defended
himself differently if he had known about additional theory).

App-24
C. The First Step Act
The First Step Act was enacted on December 21,
2018, while this case was pending on appeal. Section
401 of that Act, titled “Reduce and Restrict Enhanced
Sentencing for Prior Drug Felonies,” changed the
mandatory term of life imprisonment without release
previously
required
under
21
U.S.C.
§ 841(b)(1)(A)(viii) to a mandatory minimum of
twenty‐five years. See First Step Act, Pub. L. No. 115‐
391, § 401(a)(2)(A)(ii).
On appeal, Pierson argues that § 401 of the First
Step Act applies to him, so that his life sentence
should be vacated. We disagree. Subsection § 401(c)
states that the amendments in that section “shall
apply to any offense that was committed before the
date of enactment of this Act, if a sentence has not
been imposed as of such date of enactment.” Pub. L.
115-391, § 401(c). In common usage in federal
sentencing law, a sentence is “imposed” in the district
court, regardless of later appeals. See 18 U.S.C.
§ 3553(a) (“factors to be considered in imposing a
sentence” addressed to district court); Fed. R. Crim. P.
32(b) (“The court must impose sentence without
unnecessary delay.”); Fed. R. Crim. P. 32 advisory
committee’s note to 1994 amendment (regarding duty
to advise defendant of right to appeal: “the duty to
advise the defendant in such cases extends only to
advice on the right to appeal any sentence imposed”);
21 U.S.C. § 851(b) (“If the United States attorney files
an information under this section, the court shall after
conviction but before pronouncement of sentence …
inform [defendant] that any challenge to a prior
conviction which is not made before sentence is

App-25
imposed may not thereafter be raised to attack the
sentence.”); Fed. R. Crim P. 32(a)(2) (1986) (“After
imposing sentence in a case which has gone to trial on
a plea of not guilty, the court shall advise the
defendant of the defendant’s right to appeal …. There
shall be no duty on the court to advise the defendant
of any right of appeal after sentence is imposed
following a plea of guilty or nolo contendere.”).
Any reduction in criminal penalties or in a
Sentencing Guideline can pose difficult line-drawing
in applying the reduction to pending cases. See
generally Dorsey v. United States, 567 U.S. 260 (2012)
(addressing application of Fair Sentencing Act of 2010
to pending cases where Act did not address problem
expressly). In Dorsey, the Court applied the new, more
lenient terms of the Fair Sentencing Act to the “postAct sentencing of pre-Act offenders.” Id. at 281. In the
First Step Act, Congress chose language that points
clearly toward that same result: the date of sentencing
in the district court controls application of the new,
more lenient terms.
To avoid this result, Pierson relies on a Sixth
Circuit case, arguing that a sentence is not “imposed”
until the case reaches final disposition in the highest
reviewing court. See United States v. Clark, 110 F.3d
15, 17 (6th Cir. 1997), superseded by regulation on
other grounds, U.S.S.G. §1B1.10(b)(2)(A). The Sixth
Circuit was asked in Clark “whether § 3553(f) of the
safety valve statute should be applied to cases pending
on appeal when it was enacted.” The legislation stated
that the new safety-valve applied “to all sentences
imposed on or after the date of enactment.” 110 F.3d
at 17, quoting Pub. L. No. 103-322, § 8001(a), 108 Stat.

App-26
1796, 1985-86 (1994). Focusing primarily on the
remedial purpose of the 1994 safety-valve provision,
the court held that although the statute was enacted
a month after the defendant’s sentence was imposed
by the district court, the statute applied because “A
case is not yet final when it is pending on appeal. The
initial sentence has not been finally ‘imposed’ within
the meaning of the safety valve statute[.]”Id.
It appears that no other circuits have applied
Clark’s definition of “imposed” while interpreting the
safety-valve statute, let alone applied it while
interpreting any other statute. In view of the more
common meaning of “imposed” and Dorsey, we
respectfully decline to extend Clark’s reasoning to
§ 401(c) of the First Step Act.
Sentence was “imposed” here within the meaning
of § 401(c) when the district court sentenced the
defendant, regardless of whether he appealed a
sentence that was consistent with applicable law at
that time it was imposed. Pierson’s case falls outside
of § 401. His convictions and sentence are
AFFIRMED.

App-27
Appendix B
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 1:16CR00206-001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

DEVAN PIERSON,
Defendant.
________________
Filed: Jan. 12, 2018
________________
JUDGMENT IN A CRIMINAL CASE
________________
THE DEFENDANT:


pleaded guilty to count(s)



pleaded nolo contendere to count(s)_ which was
accepted by the court.



was found guilty on count(s) 1 through 3 after a
plea of not guilty

The defendant is adjudicated guilty of these offense(s):

App-28
Title &
Section

Nature of Offense Offense
Ended

21§841(a)(1)
and 851

Possession with
08/18/2016
Intent to Distribute
Controlled
Substances (50
Grams or More of
Methamphetamine,
Heroin, and
Cocaine)

18§924(c)(1)(A) Possession of a
Firearm in
Furtherance of
Drug Trafficking
Activity
18§922(g)(1)

Count
1

08/18/2016

2

Felon in Possession 08/18/2016
of a Firearm

3

The defendant is sentenced as provided in pages
2 through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.


The defendant has been found not guilty on
count(s)



Count(s) dismissed on the motion of the United
States.

IT IS ORDERED that the defendant shall notify
the United States Attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify
the court and United States attorney of any material
change in the defendant’s economic circumstances.

App-29
January 10, 2018
Date of Imposition of Sentence
s/ James E. Shadid
Hon. James E. Shadid, Judge
United States District Court
Southern District of Indiana
1/11/2018
Date

App-30
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be
imprisoned for a term of Life without release, plus
5 years. Count 1: Life without release; Count 3:
10 years, concurrent; Count 2: 5 years,
consecutive.


The Court makes the following recommendations
to the Bureau of Prisons:
That the defendant be designated to a
facility as close to his family as possible, and
provided access to vocational and treatment
programming.



The defendant is remanded to the custody of the
United States Marshal.



The defendant shall surrender to the United
States Marshal for this district:





at



as notified by the United States Marshal

The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:


before 2 p.m. on



as notified by the United States Marshal



as notified by the Probation or Pretrial
Service Office.

App-31
RETURN
I have executed this judgment as follows:
Defendant was delivered on _______ to __________
at _________, with a certified copy of this judgment.
_________________________
UNITED
MARSHAL

STATES

BY: _____________________
DEPUTY
UNITED
STATES MARSHAL

App-32
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of 10 years. Count
1: 10 years, Count 2: 5 years, Count 3: 3 years, all
concurrent.
MANDATORY CONDITIONS

1. You must not commit another federal, state, or
local crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic least two periodic drug
tests thereafter, as determined by the court.
 The above drug testing condition is suspended,
based on the court’s determination that you pose a
low risk of future substance abuse. (check if
applicable)
4. You must make restitution in accordance with 18
U.S.C. §§ 3663 and 3663A or any other statute
authorizing a sentence of restitution. (check if
applicable)
5.  You must cooperate in the collection of DNA as
directed by the probation officer. (check if
applicable)
6.  You must comply with the requirements of the
Sex Offender Registration and Notification Act (42
U.S.C. § 16901, et seq.) as directed by the probation
officer, the Bureau of Prisons, or any state sex
offender registration agency in the location where
you reside, work, are a student, or were convicted
of a qualifying offense. (check if applicable)

App-33
7.  You must participate in an approved program
for domestic violence. (check if applicable)
If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.
The defendant must comply with the conditions
listed below.
CONDITIONS OF SUPERVISION
1. You shall report to the probation office in the
judicial district to which you are released within 72
hours of release from the custody of the Bureau of
Prisons.
2. You shall report to the probation officer in a
manner and frequency directed by the court or
probation officer.
3. You shall permit a probation officer to visit you at
a reasonable time at home or another place where
the officer may legitimately enter by right or
consent, and shall permit confiscation of any
contraband observed in plain view of the probation
officer.
4. You shall not knowingly leave the judicial district
without the permission of the court or probation
officer.
5. You shall answer truthfully the inquiries by the
probation officer, subject to your 5th Amendment
privilege.
6. You shall not meet, communicate, or otherwise
interact with a person you know to be engaged, or
planning to be engaged, in criminal activity. You
shall report any contact with persons you know to

App-34
be convicted felons to your probation officer within
72 hours of the contact.
7. You shall reside at a location approved by the
probation officer and shall notify the probation
officer at least 72 hours prior to any planned
change in place or circumstances of residence or
employment (including, but not limited to, changes
in who lives there, job positions, job
responsibilities). When prior notification is not
possible, you shall notify the probation officer
within 72 hours of the change.
8. You shall not own, possess, or have access to a
firearm, ammunition, destructive device or
dangerous weapon.
9. You shall notify the probation officer within 72
hours of being arrested, charged, or questioned by
a law enforcement officer.
10. You shall maintain lawful full time employment,
unless excused by the probation officer for
schooling, vocational training, or other reasons
that prevent lawful employment.
11. As directed by the probation officer, you shall
notify third parties who may be impacted by the
nature of the conduct underlying your current or
prior offense(s) of conviction and/or shall permit
the probation officer to make such notifications
and/or confirm your compliance with this
requirement.
12. You shall make a good faith effort to follow
instructions of the probation officer necessary to
ensure compliance with the conditions of
supervision.
13. You shall participate in a substance abuse or
alcohol treatment program approved by the

App-35
probation officer and abide by the rules and
regulations of that program. The probation officer
shall supervise your participation in the program
(provider, location, modality, duration, intensity,
etc.). The court authorizes the release of the
presentence report and available evaluations to the
treatment provider, as approved by the probation
officer.
14. You shall not use or possess any controlled
substances prohibited by applicable state or
federal law, unless authorized to do so by a valid
prescription from a licensed medical practitioner.
You shall follow the prescription instructions
regarding frequency and dosage.
15. You shall submit to substance abuse testing to
determine if you have used a prohibited substance
or to determine compliance with substance abuse
treatment. Testing may include no more than 8
drug tests per month. You shall not attempt to
obstruct or tamper with the testing methods.
16. You shall not knowingly purchase, possess,
distribute, administer, or otherwise use any
psychoactive substances (e.g., synthetic marijuana,
bath salts, Spice, glue, etc.) that impair a person’s
physical or mental functioning, whether or not
intended for human consumption.
17. You shall submit to the search by the probation
officer of your person, vehicle, office/business,
residence, and property, including any computer
systems and hardware or software systems,
electronic devices, telephones, and Internetenabled devices, including the data contained in
any such items, whenever the probation officer has
a reasonable suspicion that a violation of a

App-36
condition of supervision or other unlawful conduct
may have occurred or be underway involving you
and that the area(s) to be searched may contain
evidence of such violation or conduct. Other law
enforcement may assist as necessary. You shall
submit to the seizure of contraband found by the
probation officer. You shall warn other occupants
these locations may be subject to searches.
18. You shall pay the costs associated with the
following imposed conditions of supervised release,
to the extent you are financially able to pay:
substance abuse treatment and testing. The
probation officer shall determine your ability to
pay and any schedule of payment.
I understand that I and/or the probation officer may
petition the Court to modify these conditions, and the
final decision to modify these terms lies with the
Court. If I believe these conditions are being enforced
unreasonably, I may petition the Court for relief or
clarification; however, I must comply with the
directions of my probation officer unless or until the
Court directs otherwise. Upon a finding of a violation
of probation or supervised release, I understand that
the court may (1) revoke supervision, (2) extend the
term of supervision, and/or (3) modify the condition of
supervision.
These conditions have been read to me. I fully
understand the conditions and have been provided a
copy of them.
(Signed)
____________________________________ _________
Defendant
Date
____________________________________ _________

App-37
U.S. Probation
Witness

Officer/Designated Date

CRIMINAL MONETARY PENALTIES
The defendant must pay the total monetary
penalties in accordance with the schedule of payments
set forth in this judgment.
Assessment

JVTA
Fine Restitution
Assessment 1

TOTALS $300.00
*

*

*

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A  Lump sum payment of $__ due immediately,
balance due
 not later than __, or
 in accordance with  C,  D,  E, or  F
below; or
B

 Payment to begin immediately (may be
combined with  C,  D,  F or  G below); or
*

1

22.

*

*

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-

App-38


The defendant shall forfeit the defendant’s
interest in the following property to the United
States:
Two firearms and all ammunition seized
during the search of his vehicle and 3825 N.
Whittier Place on August 17, 2016.

App-39
Appendix C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 1:16CR00206-001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

DEVAN PIERSON,
Defendant.
________________
Jan. 10, 2018
________________
TRANSCRIPT OF SENTENCING HEARING
________________
(Open court.)
[2] THE COURT: Good morning, everybody. This
is the United States of America versus Devan Pierson,
16-cr-00206. Mr. Pierson is present in open court with
his attorney, Mr. Riggins. Ms. Brady present for the
Government.
This matter is set today pursuant to a jury finding
of guilty on November 8, 2017, to Count 1, possession
with intent to distribute controlled substances; Count
2, possession of a firearm in furtherance of a drugtrafficking crime; and Count 3, felon in possession of a
firearm.

App-40
A presentence report was ordered and prepared.
It appears the parties have received that report.
Mr. Riggins, have you had an opportunity to
receive the presentence report?
MR. RIGGINS: Yes, I’ve received both the original
presentence investigative report along with the final
report. I noted the changes that were made in the final
report, and me and Mr. Pierson went over those as
well.
THE COURT: All right. And Ms. Brady as well?
MS. BRADY: I did receive both, yes, Your Honor.
THE COURT: Okay. And it appears that if there
were any objections they have been addressed and
resolved; is that correct, Mr. Riggins?
MR. RIGGINS: That’s correct, Your Honor.
THE COURT: Ms. Brady?
[3] MS. BRADY: Yes, Your Honor.
THE COURT: Then are the parties ready to
proceed to sentencing in this cause?
MR. RIGGINS: Yes.
MS. BRADY: Yes, Your Honor.
THE COURT: All right. For the record, there are
no post-trial motions filed; correct?
MR. RIGGINS: That is correct, Your Honor.
THE COURT: Then given no objections, I’ll adopt
a presentence report today. It appears then that we
would start, or have a total offense level. The guideline
calculations will be a total offense level 37, criminal
history category of 6. The guideline range on Count 1
would be life. Count 1 and 3, actually—no, Count 1

App-41
would be life. Count 2 would be 60 months consecutive
to Count 1, and Count 3 would be up to ten years.
Correct?
MS. BRADY: Yes, Your Honor.
MR. RIGGINS: Yes, Your Honor.
THE COURT: And Count 2 would be consecutive
to Counts 1 and 3. Supervised release period on Count
1 would be ten years. Count 2 would be two to five
years. Count 3 would be one to three years.
He’s not eligible for probation. A fine of 40,000 to
20,500,000. Restitution is not an issue. A special
assessment of $300. Do the parties agree that those
are the [4] guideline calculations, Mr. Riggins?
MR. RIGGINS: Yes, Your Honor.
THE COURT: Ms. Brady?
MS. BRADY: Yes, Your Honor.
THE COURT: Okay. With that in mind, are there
any further additions or corrections to be offered to the
presentence report from either party?
MR. RIGGINS: Nothing from us, Your Honor.
MS. BRADY: No, Your Honor.
THE COURT:
Government?

Formal

evidence

from

the

MS. BRADY: Your Honor, as there are no
objections to the PSR, we do not have evidence. I do
have certified copies of the two prior 851 convictions
should the Court request those to be added to the
record. I don’t know that it’s necessary given the fact
that there is no objection to the PSR which already
includes that information, Your Honor.

App-42
THE COURT: You’re free to make them part of
the record if you wish, but I think without objection,
that it appears that that is not being contested.
MS. BRADY: Yes, Your Honor.
THE COURT: Mr. Riggins, any formal evidence
on behalf of Mr. Pierson?
MR. RIGGINS: Your Honor, Mr. Pierson would
like to address the Court. I don’t think that he has any
additional evidence for the Court to consider, and then
after [5] Mr. Pierson, I would have some brief remarks.
THE COURT: Mr. Pierson, you will be given an
opportunity to address the Court as it pertains to
allocution if there is something—and I normally do
that after your attorney has argued for a sentencing
alternative. But maybe under the circumstances, if
you have something different to say that you’d like to
be heard on?
THE DEFENDANT: Yes, sir.
THE COURT: All right, go ahead.
THE DEFENDANT: I just want to speak on my—
the career offender thing they said they put on me
here. I understand I had two 851s filed against me, but
in my PSI, it said, “The defendant was at least 18
years old at the time of the instant offense of his
conviction. The instant offense of conviction is a felony
that is either a crime of violence or controlled
substance offense, and the defendant has at least two
prior felony convictions of either a crime of violence or
a controlled substance; therefore, the defendant is a
career offender. Because the defendant is a career
offender for both Counts 1 and 2, the otherwise
applicable guideline range for Count 1 is 360 months

App-43
to life based on the offense level of 37 and criminal
history category of 6. However, because the
defendant’s also a career offender under Count 2, the
otherwise applicable guideline range is increased by
60 months pursuant to Rule 4B1.(c)(2)(A)—
1.1(c)(2)(A) resulting in a [6] guideline range.
Therefore 420 months to life.”
I have never heard anything about getting a
career offender put on me. I heard about—I know I
had two 851s, but I never knew anything about a
career offender. I didn’t know I qualified for a career
offender.
THE COURT: Okay. And are you saying that
because you believe that Mr. Riggins should have
advised you of that if he had known?
THE DEFENDANT: Yes, sir.
THE COURT: So you’re saying you weren’t aware
of the possible penalties when you went to trial?
THE DEFENDANT: I was aware of the possible
penalties, but I didn’t know I was—could get the
career offender.
THE COURT: Were you aware that this could be,
if you were found guilty, this could be or would be a
life sentence?
THE DEFENDANT: No, I didn’t.
THE COURT: Seems to me, Mr. Riggins, you can
respond to that if you wish. First of all, there is no
objection to the designation of career offender; is that
correct, Mr. Riggins?
MR. RIGGINS: That’s correct, Your Honor.

App-44
THE COURT: And probation is here as well if
anybody has any questions. It’s based upon
paragraphs 42 and 45, [7] would that be correct? “The
prior’s conspiracy to possess with intent to distribute,”
paragraph 45, for which you received 151 months in
prison. And is the other based upon the paragraph 42
dealing in cocaine or narcotic felony?
Probation, would you identify yourself, please?
PROBATION OFFICER: Matt Renshaw for
Probation. That is correct. Those convictions form the
basis of the career offender finding.
THE COURT: And maybe for Mr. Pierson’s sake,
since he believes that he wasn’t 18 at the time that
was committed, explain that, how that still applies.
PROBATION OFFICER: It’s applied based on his
age at the time of the instant offense, not the prior
convictions. And it appears to me—I’d have to do the
math, but he would have been somewhere around 33,
more or less, somewhere in that area at the time of the
instant offense.
THE COURT: At the time of his second offense?
PROBATION OFFICER: The instant offense.
THE COURT: The instant, correct. All right.
With that in mind, is there anything else, Mr.
Riggins, that you believe needs to be addressed based
on what Mr. Pierson has said?
MR. RIGGINS: Yes, Your Honor. If I could, I
would like—Mr. Pierson has an opportunity to review
the first letter that he received from me after the very
first meeting [8] that we had. And after showing that

App-45
to him, maybe he could address the issue of whether
he knew whether he was facing a life sentence or not.
THE COURT: All right. Well, take a moment to
do that.
MR. RIGGINS: I did already, Your Honor. I think
he can answer the question.
THE COURT: Mr. Pierson, does it appear you
were advised that you could receive a life sentence?
THE DEFENDANT: That’s what it says in this
letter right here.
THE COURT: The letter was clearly received by
you before you went to trial?
THE DEFENDANT: Uh-huh. On March 29th, he
sent it out.
THE COURT: All right. Okay then, with that in
mind, I think that will—no need to address that issue
any further.
Is there anything else you want to say on that type
of an issue, Mr. Pierson? Otherwise you will have an
opportunity to speak again.
THE DEFENDANT:
opportunity?

I

will

not

have

an

THE COURT: You will.
THE DEFENDANT: I’ll wait.
THE COURT: All right, very good. Okay.
[9] Then argument as sentencing alternatives
from the Government?
MS. BRADY: Your Honor, we would simply
request that Mr. Pierson be sentenced in accordance
with the guidelines, that is a mandatory life sentence

App-46
as to Count 1. And the guidelines as to Counts 2 and
3, particularly with Count 2 to run consecutive. I
think, Your Honor, that the law is quite clear on this.
And I think more importantly, even in looking at the
3553 factors, Your Honor, I think it’s clear that this is
the appropriate sentence regardless.
Your Honor, when you look at Mr. Pierson’s
criminal history, I believe, with the first arrest at the
age of 13, with ongoing convictions and additional
arrests for firearms and drug-related offenses, until
the dates of his most recent arrest, Your Honor, I think
it’s clear.
Most importantly, I would note that Mr. Pierson
dates back in this courthouse back to 2007 when
AUSA Conour and I first encountered Mr. Pierson for
a cocaine conspiracy offense. He was sentenced. He
received the very fair plea agreement and plea offer
from the Government, and rather than take that
opportunity to kind of reboot and say “Hey, you know
what, I deal drugs, this is probably going to eat up a
huge chunk of my life,” what he did barely out of the
halfway house is go right back into it.
And I think what makes this particularly
offensive [10] is the fact that Mr. Pierson, it is my
understanding, was in the REACH program in our
district, which means Probation took a very intensive
effort to help Mr. Pierson. “You need a job? We’ll get
you a job. You need someplace to live? We’ll work with
you.”
They did everything they could to assist Mr.
Pierson in coming back to where he should be in life.
And he made a very clear and very conscious decision
he wasn’t going to do that.

App-47
So looking both at the law, looking at the 3553
factors, I think they go to and direct us to the same
sentence. That is a respectful recommendation for the
Court for a life sentence in this matter, Your Honor.
THE COURT: All right. Thank you.
Mr. Riggins?
MR. RIGGINS: Your Honor, what I would ask the
Court to take into consideration under the 3553
factors, in addition to those, I would ask the Court to
make a separate analysis from the 851s that were filed
and make a determination if, without those being
filed, would the Court have made a determination that
Mr. Pierson would be given a life sentence.
THE COURT: Ms. Brady, do you wish to be heard
on that point?
MS. BRADY: Your Honor, I’m not sure that the
law would require some separate analysis. The fact is
the law is [11] what it is. The 851s were filed. The law
is clear. A life sentence is appropriate, in addition to it
being appropriate under the 3553 factors.
THE COURT: All right. Thank you.
Mr. Pierson, at this time, you have an opportunity
to make a statement if you wish.
THE DEFENDANT: Yeah. First and foremost,
Your Honor, I’d like to address the Court on a few
issues so that it will be on record. I know I was found
guilty of these charges. There was a few issues I had
with Mr. Riggins that I wasn’t allowed to speak about
during my trial.
The first being the fact that Mr. Matthew Whitt,
the—the drug examiner, didn’t come to testify because

App-48
he was relieved of his duties prior to trial. After trial,
I asked Mr. Riggins—during trial I asked Mr. Riggins
why he’s not testifying, and he simply wrote down on
this piece of paper right there, that sheet of paper
right there, that he quit during my trial.
And after that, I called him, and during the
recorded phone call, asked Mr. Riggins about the
situation, and he stated that Ms. Brady told him that
Matthew Wiggins—that Matthew Whitt had quit. So
I asked him, I said, “So you just going to go with what
the prosecutors say, and not try to investigate the
situation on why the person who was testing the drugs
that was found in the house can’t testify because [12]
all of a sudden he just got relieved of his duties?” And
I feel it’s my right to know who’s testifying against me
if their name was in my trial brief because Mr.
Matthew Whitt’s name was in my trial briefs.
And then when the other person came and got on
the stand and testified about the drugs, I never knew
who he was. That was the first time I ever seen or
heard of his name or anything.
Then I also asked Mr. Riggins on several
occasions that I need copies of the letter that I wrote—
every letter that I wrote him, and every letter he wrote
me to show that I asked for several motions to get filed
prior to trial that he never attempted to file. These
motions could have possibly saved me from going to
trial or proved my innocence in this case.
Also, I’d like to thank you for taking time out of
your day to come from Illinois to hear this difficult
case. And I also like to apologize to my daughter, KiAyjah, for not being able to be the dad that she needs
in her life. I also want her to know that I love her with

App-49
all my heart and I’ll be home soon so that I can be
there with her for the remainder of my life. And to the
rest of my family and friends, I thank you all for
everything. I love you, y’all. And to my mama, Diane,
if you can do it, I can do it. It’s time for me to leave it
in God’s hands. That’s what she would always say. [13]
That’s what I’m going to do. I love you, Mom, and I’ll
be home soon.
And for the Court recommendations, I’d like to be
placed back close to home where I was at before I was
released from federal prison the first time.
THE COURT: All right. Thank you.
MR. RIGGINS: Your Honor, may I have a moment
with Mr. Pierson?
THE COURT: You may. And while you’re doing
that, with regard to the point Mr. Riggins made about
what the sentence might be without the 851, as I
understand, that would be Level 30, category 6 still.
What would that sentencing range be?
MS. BRADY: He would still be a career offender,
correct, Your Honor?
THE COURT: Correct, but I’m just looking at
what it was before it got bumped to career offender.
MS. BRADY: Yes, Your Honor.
THE COURT: He would still be a career offender.
PROBATION OFFICER: Are you looking for the
guideline range at level 30, category 6, Your Honor?
THE COURT: Yes, just to make a point.
PROBATION OFFICER: Yes, 168 to 210 months.
THE COURT: All right. Mr. Riggins, do you need
any more time with Mr. Pierson?

App-50
[14] MR. RIGGINS: Your Honor, I didn’t hear
what Mr. Renshaw said.
THE COURT: 168 to 210 if it was a Level 30.
MR. RIGGINS: I’m ready. He’s ready.
THE COURT: Mr. Pierson, anything else you
want to say based upon your visit with Mr. Riggins?
THE DEFENDANT: I would like to have, like,
copies of this paper right here.
THE COURT: What paper is that?
THE DEFENDANT: It’s the paper where he wrote
on there during my trial. I had asked him questions
and he had simply stated that the drug chemist dude
had quit, and he didn’t do a thorough investigation on
what happened to the drug chemicals. So I’d like to
have copies of that paper made.
THE COURT: Well, I’m going to leave that in Mr.
Riggins’ hands. It seems to me that’s a work product
of his. Whether he provides a copy to you or not will be
up to him. It seems like you’re making a record on
what it says. So I’ll leave that at this point alone
unless Mr. Riggins wishes to be heard.
MR. RIGGINS: Your Honor, just for the record,
Mr. Pierson asked me to gather all of his prior letters.
I have given all of his prior letters to him today, and
that paper that he’s describing is a part of that packet
that’s [15] listed in there.
THE DEFENDANT: No, it’s not.
THE COURT: All right. Well, then that’s that.
Anything else you want to say, Mr. Pierson?

App-51
THE DEFENDANT: I don’t have that. Flip it over.
That’s what I had asked you during trial and you
wrote right there.
THE COURT: Anything else, Mr. Pierson,
anything else you want to say?
THE DEFENDANT: No, I just like to appeal my
case if possible.
THE COURT: All right. You will hear your appeal
rights here momentarily.
You made it clear throughout the proceedings and
throughout the trial, Mr. Pierson, that you have had
some issues with Mr. Riggins. I found that given the
circumstances, and from my observation and viewing
of the evidence, that Mr. Riggins did all he could do in
representing you in this matter.
But having said that, and considering all the
information before me, which includes the presentence
report, which includes the sentencing guideline
calculations, the career offender designation, the
arguments of counsel, the statement that you’ve made
throughout the trial, and yet today, the factors in
3553, which I’ll articulate a few in a [16] moment, I
believe the sentence that’s to be imposed is sufficient,
but not greater than necessary to comply with the
purpose of the act.
The presentence report catches my attention right
at paragraph 10 on page 4. We don’t have to look very
far. Shortly, within a few weeks of the trial, you
apparently had an incident at the Knox County jail
where you punched somebody in the face. You
admitted it. You said you had felt disrespected. You
said something about receiving a mandatory life

App-52
sentence, which also confirms that you knew what the
sentence would be before you went to trial.
THE DEFENDANT: This was after my trial?
THE COURT: I understand that, but before
sentencing, before a presentence report was even
prepared and released. It appears that you were aware
of the mandatory life sentence.
The point I’m making isn’t necessarily that you
were aware of the mandatory life sentence, but the
punching of somebody because you felt disrespected.
And you don’t have to look too far, and I’m not a
lecturer, and by no means is this a lecture, and frankly
you are very clear where this sentence may be headed,
so I’m not going to spend much time visiting or talking
about it. But the conduct on paragraphs 11 through 14
as set forth in the presentence report, or 11 through
16 and 17, comes in August of 2016 within four months
of your release [17] from a prior drug felony of which
you received 151 months.
Then when you returned to this way of life, you
basically said, “I refuse to live by the rules that society
wishes me to comply with. So please put me back in
prison, and since I refused to comply, you might as
well put me back in prison for as long as you can.”
I don’t take any pleasure in imposing a sentence
like this, but it just seems to me you were determined
to make yourself come to this point; possessing
handguns at age 16, dealing cocaine at 17, conspiring
to possess with intent to deliver crack at age 25. I
pointed out you were released in April of 2016. This
conduct occurred in August of 2016.

App-53
I’m not sure if this is your way of proving or
earning respect for yourself. Then if it is, perhaps it’s
just as well that you get a life sentence today because
you’re sure to return. And to Mr. Riggins point about
the 851s, they were properly applied. You are properly
a career offender. I believe this sentence is properly
imposed and appropriate, but your guideline range
would be 168 to 210 if you were that level 30, criminal
history category 6. You received 151 months
previously, and that did not deter you in any way,
shape or form to return to this lifestyle. So the
sentence today is appropriate.
I’ll say as well, when I reference paragraph 62 to
65 about your childhood, and I don’t presume by any
means to [18] know how your childhood affected you,
clearly it set you on this path. Maybe it set you on to
not understand the norms of society. Maybe it set you
on a course to not understand simple rights and
wrongs. Your dad was never in your life. He was in
and out of prison. Your mother, who is working now
and so I assume she’s recovered in some fashion, was
a crack addict during your childhood, leaving you
alone for periods of time. Legal guardianship of you
was placed with someone else at age 14.
So in some regards, some would say maybe you
never had a chance. And I don’t presume to know
whether those are obstacles that simply you’re unable
to overcome. But I do know this. In the federal system,
and when you were released in April of 2016, as Miss
Brady points out, the probation office and the
supervised release officers do take their role seriously,
and they did set up conditions for you to try to help

App-54
yourself. And obviously you never gave that a chance
to do so.
So even though I take no pleasure in imposing a
sentence like this, it’s one you pretty much chose for
yourself, and I do believe it is appropriate. So given all
the factors that are properly considered here, I do
believe that it will be my judgment and sentence that
you’ll be imprisoned for a concurrent term of life on
Count 1, and ten years on Count 3. Again, those would
be concurrent with each [19] other. A term of 60
months on Count 2 to be served consecutively. It
produces a total term of life plus five years. I find no
ability to pay a fine, so no fine is imposed.
I find forfeiture of all the firearms and
ammunition seized from your vehicle at 3825 North
Whittier Place on August 18, 2016. The supervised
release period will be, as to Count 1, a term of ten
years. Five years on Count 2. Three years on Count 3.
Those will be served concurrent with each other.
Based on the nature of the offense, as well as your
personal history and characteristics and to protect the
public, I also am adopting the supervised release
conditions that are set forth in paragraphs 106 and
107 of the presentence report with the reasoning, and
I will state those.
Mr. Riggins, have you gone over those with Mr.
Pierson?
MR. RIGGINS: Yes, Your Honor.
THE COURT: All right. While on supervised
release, you will not commit another federal, state or
local crime, cooperate in the collection of DNA.

App-55
Refrain from any unlawful use of a controlled
substance, and submit to one drug test within 15 days
of placement on supervised release, and at least two
periodic tests thereafter as directed by the probation
office.
[20] Report to the probation office in the judicial
district to which you are released within 72 hours of
your release from custody of the Bureau of Prisons.
Report to the probation officer in a manner and
frequency as directed by the court or the probation
officer.
Permit a probation officer to visit you in a
reasonable time at home or another place where the
officer may legitimately enter by right or consent, and
permit confiscation of any contraband observed in
plain view of the probation officer.
The first two conditions are administrative
requirements of supervision. This is a condition to
assist the probation officer in monitoring you for the
protection of the community. Not knowingly leave the
judicial district without the permission of the court or
the probation officer. This is again to assist probation
in monitoring you for protection of the community.
Answer truthfully to inquiries by the probation
officer subject to your 5th Amendment privilege. This
is an administrative requirement of supervision.
Not meet, communicate or otherwise interact with
a person you know to be engaged or planning to be
engaged in criminal activity. Report any contact with
persons you know to be convicted felons to your
probation officer within 72 hours of contact. This
condition is designed to reduce the [21] risk of
recidivism and provide for public safety.

App-56
Reside at a location approved by the probation
officer and notify probation at least 72 hours prior to
any planned change in place or circumstances of
residence or employment, including but not limited to
changes in who lives there, job positions, job
responsibilities.
When prior notification is not possible, notify
probation within 72 hours of the change. This
condition is imposed to assist probation in monitoring
you and for protection of the community.
Not own, possess or have access to firearm,
ammunition, destructive device or dangerous weapon.
This condition is imposed to assist probation in
monitoring you and for the protection of the
community, and simply because as a convicted felon,
you’re not allowed to possess.
Notify probation within 72 hours of being
arrested, charged or questioned by law enforcement.
This condition is imposed to assist probation in
monitoring you and for protection of the community.
Maintain lawful full-time employment unless
excused by probation for schooling, vocational
training, or other reasons that prevent lawful
employment. This is to ensure gainful employment to
reduce the risk of recidivism.
Notify third parties who may be impacted by the
nature of the conduct underlying your current or prior
[22] offenses of conviction, and permit Probation to
make such notifications and confirm your compliance.
Ordering this condition to reduce the risk to the
community posed by the offense of conviction as well
as your personal history and characteristics.

App-57
Make a good faith effort to follow instructions of
probation necessary to ensure compliance. This is an
administrative requirement.
Participate in a substance abuse or alcohol
treatment program approved by probation, and abide
by the rules and regulations of that program.
Probation shall supervise your participation in the
program. The Court authorizes the release of the
presentence report and available evaluations to the
treatment providor as approved by probation. This
addresses your history of substance abuse.
Not use or possess any controlled substances
prohibited by applicable state or federal law unless
authorized to do so by a valid prescription from a
licensed medical practitioner. Follow the prescription
instructions regarding frequency and dosage. This is
to monitor your sobriety.
Not knowingly purchase, possess, distribute,
administer or otherwise use any psychoactive
substances that impair a person’s physical or mental
functioning, whether or not intended for human
consumption. This is to address your [23] history of
substance abuse.
Submit to substance abuse testing to determine if
you’ve used a prohibited substance or to determine
compliance with the substance abuse treatment.
Testing may include no more than eight drug tests per
month. Shall not attempt to obstruct or tamper with
the testing methods. This allows probation to monitor
your sobriety.
Provide probation access to any requested
financial information. Is this necessary given that no
fine is being imposed?

App-58
MS. BRADY: Other than the $300 special
assessment, that I believe Your Honor is assessing, I
don’t know that it is. No, Your Honor, it’s not.
THE COURT: I don’t think I’ll impose that.
Submit to a search by probation of your person,
vehicle, office, business, residence and property,
including any computer systems and hardware or
software systems, electronic devices, telephones,
Internet-enabled devices, including data contained in
such whenever probation has a reasonable suspicion
that a violation of a condition of supervision or other
unlawful conduct may have occurred or be underway
involving you, and that area to be searched may
contain evidence of such a violation or conduct. Other
law enforcement may assist as necessary.
Submit to the seizure of contraband found by the
[24] probation officer. Warn other occupants these
locations may be subject to searches. This is due to the
nature of the instant offense and your history of
substance abuse. I’m imposing this condition to assist
probation in monitoring you and for the protection of
the community.
Pay the costs associated with the following
imposed conditions to the extent you’re able to do so:
Substance abuse treatment and testing. Probation
will determine your ability to pay and any schedule of
payments subject to my review upon request. This
requires you to invest, if you can, in your own
rehabilitation.
The special assessment of $300 is imposed. I will
recommend that you serve your sentence in a facility
that gives you access to vocational and drug treatment
possibilities as well as close to your family as possible.

App-59
Is there anything else the parties believe needs to
be addressed before appeal rights?
MS. BRADY: No, Your Honor.
MR. RIGGINS: No, Your Honor.
THE COURT: All right. I’ll say one last thing
here, Mr. Pierson. Sentences like this shouldn’t be
necessary. In spite of the history you made for
yourself, there was an opportunity for you to avoid
this. Your visits with me during the trial and after and
today indicate to me a person that can articulate how
he thinks. It just seems to me [25] that you could have
made or clearly should have made different choices.
With that in mind, you do have appeal rights. You
have 14 days to do so, or ask Mr. Riggins to do so on
your behalf. Mr. Riggins was court-appointed counsel.
So it’s probably appropriate that court-appointed
counsel would be available for you for your appeal.
Anything else the parties believe needs to be
addressed today?
MS. BRADY: No, Your Honor.
MR. RIGGINS: Your Honor, I think he wants to
ask the clerk to issue the notice just to make sure that
it’s done. Is that what you want?
THE DEFENDANT: Yes.
THE COURT: All right.
MR. RIGGINS: And then I’ll file the necessary
documents in the Court of Appeals.
THE COURT: Very good.
THE DEFENDANT: How long do I have for that?

App-60
THE COURT: Well, the appeal process starts
now. How long it takes, you’ll be advised by the Court
of Appeals on the process. Okay?
THE DEFENDANT: All right.
THE COURT: All right. Very good. Thank you.
We’ll be in recess.

App-61
Appendix D
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 1:16CR00206-001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

DEVAN PIERSON,
Defendant.
________________
Filed: September 21, 2016
________________
INDICTMENT
________________
The Grand Jury charges that:
Count One
(21 U.S.C. 841(a)(1) Possession with Intent to
Distribute Controlled Substances)
On or about August 18, 2016, in the Southern
District of Indiana, DEVAN PIERSON, defendant
herein, knowingly and intentionally possessed with
the intent to distribute controlled substances,
including 50 grams or more of methamphetamine, a
Schedule II controlled substance; a mixture or
substance containing a detectable amount of heroin, a
Schedule I controlled substance; and/or a mixture or
substance containing a detectable amount of cocaine,

App-62
a Schedule II controlled substance, in violation of Title
21, United States Code, Section 841(a)(1).
Count Two
(18 U.S.C. 924(c)-Possession of a Firearm in
Furtherance of Drug Trafficking Activity)
On or about August 18, 2016, in the Southern
District of Indiana, DEVAN PIERSON, defendant
herein, did knowingly possess a firearm, that is, a
Taurus Model PT 145 .45 caliber handgun, in
furtherance of a drug trafficking crime for which he
may be prosecuted in a court of the United States, that
is, the drug offense charged in Count One; all in
violation of Title 18, United States Code, Section
924(c)(1)(A).
Count Three
(18 U.S.C. 922(g)-Possession of a Firearm as A
Previously Convicted Felon)
On or about August 18, 2016, in the Southern
District of Indiana, DEVAN PIERSON, defendant
herein, having been convicted of a crime punishable by
imprisonment for a term exceeding one year, to wit:
felony Dealing in Cocaine or Narcotic in 2000 in
Marion County Superior Court, and felony Conspiracy
to Possess Controlled Substances with Intent to
Distribute in 2009 in the Southern District of Indiana;
did knowingly possess in and affecting interstate
commerce, a firearm, that is, a Taurus Model PT 145
.45 caliber handgun, in violation of Title 18, United
States Code, Section 922(g)(1).
FORFEITURE
1. Pursuant to Federal Rule of Criminal
Procedure 32.2, the United States hereby gives the

App-63
defendant notice that the United States will seek
forfeiture of property, criminally and/or civilly,
pursuant to Title 18, United States Code, Sections
924(d), Title 21, United States Code, Sections 853 and
881, and Title 28, United States Code, Section 2461
(c), as part of any sentence imposed.
2. Pursuant to Title 18, United States Code,
Section 924(d), if convicted of the offenses set forth in
Counts Two or Three of this Indictment, the defendant
shall forfeit to the United States “any firearm or
ammunition involved in” the offense.
3. Pursuant to Title 21, United States Code,
Section 853, if convicted of the offense set forth in
Count One of the Indictment, the defendant shall
forfeit to the United States any and all property
constituting or derived from any proceeds the
defendant obtained directly or indirectly as a result of
the offense, and any and all property used or intended
to be used in any manner or part to commit and
facilitate the commission of the offense.
4. The United States shall be entitled to
forfeiture of substitute property pursuant to Title 21,
United States Code, Section 853(p), and as
incorporated by Title 28, United States Code, Section
2461(c), if any of the property described above in
paragraph 3, as a result of any act or omission of the
defendant:
a.

cannot be located upon the exercise of due
diligence;

b.

has been transferred or sold to, or deposited
with, a third party;

App-64
c.

has been placed beyond the jurisdiction of the
court;

d.

has been substantially diminished in value;
or

e.

has been commingled with other property
which cannot be divided without difficulty.
A TRUE BILL
[Redacted]
Foreperson

JOSH J. MINKLER
United States Attorney
By: [handwritten: signature]
Michelle P. Brady
Assistant United States Attorney

App-65
Appendix E
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF INDIANA
________________
No. 1:16CR00206-001
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

DEVAN PIERSON,
Defendant.
________________
Filed: September 23, 2016
________________
INFORMATION AS TO DEFENDANT’S PREVIOUS
FELONY DRUG CONVICTIONS
________________
The United States of America, by counsel, Josh J.
Minkler, United States Attorney for the Southern
District of Indiana, and Michelle P. Brady, Assistant
United States Attorney, respectfully files an
information as to defendant’s previous conviction for
one or more felony drug offenses, as required by 21
U.S.C. §§ 841 and 851.
Specifically, the United States hereby states that:
1. On or about May 1, 2009, the defendant
Devan Pierson was convicted of Conspiracy to Possess
with Intent to Distribute and to Distribute 50 Grams
or More of Cocaine Base in the Southern District of
Indiana, Case Number 1:07-cr-63 SEB-KPF.

App-66
2. On or about February 23, 2000, the defendant
Devan Pierson was convicted of Dealing in Cocaine or
Narcotic in Marion County, Indiana Superior Court,
Case Number 49G20-0002-PC-033199.
Respectfully submitted,
JOSH J. MINKLER
United States Attorney
By: S:/Michelle P. Brady
Michelle P. Brady
Assistant United States
Attorney

